f

\

•V

i

;

i

APPENDIX
i

>•

;

5

l

n-

\

APPENDIX A

*1

19-7790
■j

ft '
r

/

*

Stephen Nivens
#371269
MARYLAND CORRECTIONAL TRAINING CENTER
' S-77^-‘ 18800 Roxbury Road
^Hagerstown, MD 21746

•’v

k

V

'3-/i::0
i

■;

(

- ff.

*•/ .

V-

V

Appendix A
/

\

J

FILED: August 24, 2020
.c

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7790
(8:16-cv-02648-TDC)

STEPHEN NIVENS,
Petitioner - Appellant,
v;::
■f

*

V.

j. PHILLIP MORGAN, Warden; ATTORNEY GENERAL OF MARYLAND,
Respondents - Appellees.
:S •
;■

ORDER

'2i

j

Stephen Nivens seeks to appeal the district court’s order denying relief on his 28

U.S.C. §2254 (2018) petition. We grant a partial certificate of appealability on the
following issue: Whether the first-degree burglary offense charged in Count 6 was the same
in fact and in law as the first-degree burglary offense charged in Count 5, such that Nivens’
^..

•.

(

j

t

I.,'!

T
A

l
• ;i\

V-

IX:
:-

Appendix A

*
' >-

4
Conviction for Count 5 violated the Double Jeopardy Clause.* The Clerk shall enter a final
*» briefing

schedule by separate order.
For the Court
/s/ Patricia S. Connor. Clerk

■'&

1
‘

>.

<■

1

.. .......

r>

r:

■{

* On the present record, which does not contain Nivens’ charging instrument, we
are unable to discern the specific allegations underlying Counts 5 and 6 and whether the
jury acquitted Nivens off Qmnt 6 or the state abancjongd that change at trial.
r

Appendix A

t:

4
%

*-Vi

.19-7790 &
■■

l

>

*

& .

£

■i

Sr

•;

ri

*

I
■)'

■ii

'

*■

iv-

ii
^Stephen Nivens i
-7
> • ’C':
$#371269
: MARYLAND CORRECTIONAL TRAINING CENTER
*
-779/) >48800 Roxbury Road
ifiagerstown, MD ’21746
■:

"

,5i>r,V

•

a
V;

;

(

r*

?

nS
M/
&

?'

:V

%
r

?

ti.r.l

r

i

\
3
5

I'
7;

*.

* }

%
M

■l
•i

'5*

:-cv

it
£
■*r

Yry...
:

<-h

■

■'.vC . •

. ±447
' '

'

4
v*

A

t
■i-

i

i

V

t?

i

>

yi-

\

.

?.i •

FILED: December 14, 2020

0
v^
i;

s*.

a
viK.

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

a-

■

mo. 19-7790,

V

*Y J '

Stephen Nivens v. J. Morgan
8:16-cv-02648-TDC

NOTICE OF JUDGMENT
5* •

Judgment was entered on this date in accordance with Fed. R. App. P. 36. Please
be advised of the following time periods:
PETITION FOR WRIT OF CERTIORARI: The time to file a petition for writ
of certiorari runs from the date of entry of the judgment sought to be reviewed, and
not from the date of issuance of the mandate. If a petition for rehearing is timely
filed in the court of appeals, the time to file the petition for writ of certiorari for all
parties runs from the date of the denial of the petition for rehearing or, if the
petition for rehearing is granted, the subsequent entry of judgment. See Rule 13 of
the Rules of the Supreme Court of the United States; www.supremecourt.gov.
J-U

i

VOUCHERS FpR PAYMENT OF APPOINTED OR ASSIGNED
jCOUNSEL: Vquchers must be submitted within 60 days of entry of judgment or
denial of rehearing, whichever is later. If counsel files a petition for certiorari, the
60-day period runs from filing the certiorari petition. (Loc. R. 46(d)). If payment is
being made from CJA funds, counsel should submit the CJA 20 or CJA 30
Voucher through the CJA eVoucher system. In cases not covered by the Criminal
Justice Act, counsel should submit the Assigned Counsel Voucher to the clerk's
office for payment from the Attorney Admission Fund. An Assigned Counsel
Voucher will besent to counsel shortly after entry of judgment. Forms and
instructions are also available on the court's web site, www.ca4.uscourts.goy, or
from the clerk's Office.
)!

SlLL OF COSTS: a party to whom costs are allowable, who desires taxation of
costs, shall file a Bill of Costs within 14 calendar days of entry of judgment.
(FRAP 39, Loc.rR. 39(b)).
0

h

r

<>}\

;
%

<;

Appendix A

PETITION FOR REHEARING AND PETITION FOR REHEARING EN
BANC: A petition for rehearing must be filed within 14 calendar days after entry
;..
t „ of judgment, except that in civil cases in which the United States or its officer or
agency is a party, the petition must be filed within 45 days after entry of judgment.
A petition for rehearing en banc must be filed within the same time limits and in
the same document as the petition for rehearing and must be clearly identified in
the title. The only grounds for an extension of time to file a petition for rehearing
are the death or serious illness of counsel or a family member (or of a party or
family member in pro se cases) or an extraordinary circumstance wholly beyond
the control of counsel or a party proceeding without counsel.
P
»
Each case number to which the petition applies must be listed on the petition and
included in the docket entry to identify the cases to which the petition applies. A
< .* timely filed petition for rehearing or petition for rehearing en banc stays the
mandate and tolls the running of time for filing a petition for writ of certiorari. In
consolidated criminal appeals, the filing of a petition for rehearing does not stay
the mandate as tfo co-defendants not joining in the petition for rehearing. In
consolidated civil appeals arising from the same civil action, the court's mandate
will issue at the same time in all appeals.
']

A petition for rehearing must contain an introduction stating that, in counsel's
judgment, one or more of the following situations exist: (1) a material factual or
legal matter wasloverlooked; (2) a change in the law occurred after submission of
the case and was overlooked; (3) the opinion conflicts with a decision of the U.S.
Supreme Court,Ithis court, or another court of appeals, and the conflict was not
addressed; or (4) the case involves one or more questions of exceptional
importance. A petition for rehearing, with or without a petition for rehearing en
banc, may not exceed 3900 words if prepared by computer and may not exceed 15
pages if handwritten or prepared on a typewriter. Copies are not required unless
requested by the’court. (FRAP 35 & 40, Loc. R. 40(c)).
A

MANDATE: Imoriginal proceedings before this court, there is no mandate. Unless
: the court shortens or extends the time, in all other cases, the mandate issues 7 days
, after the expiration of the time for filing a petition for rehearing. A timely petition
fbr rehearing, petition for rehearing en banc, or motion to stay the mandate will
stay issuance of the mandate. If the petition or motion is denied, the mandate will
issue 7 days later. A motion to stay the mandate will ordinarily be denied, unless
the motion presents a substantial question or otherwise sets forth good or probable
cause for a stay.l(FRAP 41, Loc. R. 41).
ro

?su
$

I Appendix A

ft

$

Si

*4

2

o
o

l
f

v

i

3o

\ 202'

w

io_ 1-j ony

o

Z 5 c rn,

3 33

£

ON* '

C ■■

IS 1Z iQ °°
> 2

8 >£ 5g 2TJ om

g§5

L_

S

Stephen Nivens
#371269
J
MARYLAND CORRECTIONAL TRAINING 0

r-

(A

4

\tA

T"
S'

■ ir1

V-'

1

*0

tft

t*l

>

>0

s(/i o 8W

n 2t t*

wo2

o.|S
*s

85

25

H

W

P
i

f

'1

,«

\

■1

19-7790

/
■ i

I

.r.-

Stephen Nivens
#371269
MARYLAND CORRECTIONAL TRAINING CENTER
13-7790 18800 Roxbury Road
Hagerstown, MD 21746

St-:

#2 M..-,
19-7780 U‘:;

T

rf .
i

?

"i

T
-} U ?•/ Qfi

;
■

#2

y 2.

V

Appendix A

{

• >.
's'-

i "V:

•• t-

■ Cir. 2015) (noting that prohibition against double jeopardy protects a defendant from being

?.■

a

£
W-

convicted of two charges that “are in law and in fact the same offense” (internal quotation

5#

>:

.>•

marks omitted)). However, the record now makes clear that Count 6 was markedly
different from Count 5, as the former involved the intent to commit a petty theft while the
latter involved the intent to commit a sex offense. Accordingly, we affirm the part of the

v*.

£

district court’s order denying relief on this claim.
r
!

Turning to Nivens’ other habeas claims, a certificate of appealability will not issue

H'.

?■

absent “a substantial showing of the denial of a constitutional right.”

28 U.S.C.

<■

§ 2253(c)(2). When the district court denies relief on the merits, a prisoner satisfies this
standard by demonstrating that reasonable jurists could find the district court’s assessment

$

I

of the constitutional claims debatable or wrong. See Buck v. Davis, 137 S. Ct. 759, 773-74
(2017). When the district court denies relief on procedural grounds, the prisoner must
i

demonstrate both that the dispositive procedural ruling is debatable and that the petition
states a debatable claim of the denial of a constitutional right. Gonzalez v. Thaler, 565 U.S.
134, 140-41 (2012) (citing Slack v. McDaniel, 529 U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Nivens has not made
'i

the requisite showing.

Accordingly, we deny Nivens’ motion for a certificate of

' appealability and dismiss the remainder of the appeal. We dispense with oral argument
because the facts and legal contentions are adequately presented in the materials before this
• • '>

court and argument would not aid the decisional process.
AFFIRMED IN PART,
DISMISSED IN PART

Appendix A

v

1

*

PER CURIAM:
Stephen Nivens appeals the district court’s order denying relief on his 28 U.S.C.
t-

§ 2254 petition. Due in part to the record’s omission of Nivens’ charging instrument, we
granted a partial certificate of appealability on Nivens’ claim that, in violation of the
Double Jeopardy Clause, the prosecution charged and obtained a conviction for an offense

;s

that it had previously abandoned at trial. Now, with the benefit of a supplemented record,
we affirm in part and dismiss in part.
To appeal the denial of a § 2254 petition, a petitioner must obtain a certificate of
appealability from a circuit justice or judge. 28 U.S.C. § 2253(c)(1)(A). For claims on
which a certificate of appealability has been granted, we review the denial of habeas relief
de novo. Grueninger v. Dir., Va. Dep’t of Corr., 813 F.3d 517, 523 (4th Cir. 2016).
Nivens’ indictment—included as part of the supplemental record—confirms that no
double jeopardy violation occurred. At trial, the prosecution abandoned a charge of
i

breaking and entering with the intent to commit a theft of less than $300 (Count 6), and the
jury found Nivens guilty of burglary with intent to commit a sex offense (Count 5). Due
v •
a
to an evidentiary error, the conviction on Count 5 was vacated on appeal. Thereafter,
Nivens entered an Alford* plea to Count 5—the conviction he challenges here.
Throughout his state and federal postconviction proceedings, Nivens has argued that
Counts 5 and 6 were the same, so the prosecution’s abandonment of Count 6 precluded his
subsequent Alford plea to Count 5. See United States v. Schnittker, 807 F.3d 77, 81 (4th
•>

* North Carolina v. Alford, 400 U.S. 25 (1970).

Appendix A

<

UNPUBLISHED

V;

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-7790
STEPHEN NIVENS,
Petitioner - Appellant,
vv:

v..
J. PHILLIP MORGAN, Warden; ATTORNEY GENERAL OF MARYLAND,
Respondents - Appellees.

Appeal from the United States District Court for the District of Maryland, at Greenbelt.
Theodore D. Chuang, District Judge. (8:16-cv-02648-TDC)

Submitted: November 30, 2020

Decided: December 14, 2020

!■

Before WYNN, DIAZ, and THACKER, Circuit Judges.
Affirmed in part, dismissed in part by unpublished per curiam opinion.
ii

Stephen Nivens, Appellant Pro Se. Jer Welter, OFFICE OF THE ATTORNEY GENERAL
OF MARYLAND, Baltimore, Maryland, for Appellees.
i

Unpublished opinions are not binding precedent in this circuit.

■

Appendix A

<

V

i
0

!

FILED: December 14, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

;

No. 19-7790
(8:16-cv-02648-TDC)

STEPHEN NIVENS
•i •

?•

Petitioner - Appellant
v.

i

J. PHILLIP MORGAN, Warden; ATTORNEY GENERAL OF MARYLAND
Respondents - Appellees
S'

%

JUDGMENT
V

In accordance with the decision of this court, a certificate of appealability is
7

A

denied. The judgment of the district court is affirmed in part. The appeal is
dismissed in part.
r

This judgment shall take effect upon issuance of this court’s mandate in
accordance with Fed. R. App. P. 41.
’V

Is/ PATRICIA S. CONNOR. CLERK
0/

■r\ l

1.

o'

i

Appendix A

ar
}

V

/

FILED: January 5, 2021

<

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

I'

No. 19-7790
(8:16-cv-02648-TDC)

STEPHEN NIVENS
Petitioner - Appellant
v.
J. PHILLIP MORGAN, Warden; ATTORNEY GENERAL OF MARYLAND
Respondents - Appellees
;
;

MANDATE
f’

v
f

The judgment of this court, entered December 14, 2020, takes effect today.

i

This constitutes the formal mandate of this court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
7

-\

/s/Patricia S. Connor, Clerk

\.
is

i

!

Appendix A

<

*

APPENDIX B

Case 8:16-cv-02648-TDC Document 41 Filed 11/15/19 Page 1 of 20

UNITED STATES DISTRICT COURT
DISTRICT OF MARYLAND
STEPHEN NIVENS,
Petitioner,
v.
Civil Action No. TDC-16-2648
WARDEN J. PHILLIP MORGAN and
THE ATTORNEY GENERAL OF THE
STATE OF MARYLAND,
Respondents.

MEMORANDUM OPINION
Petitioner Stephen Nivens, an inmate at the Maryland Correctional Training Center in
Hagerstown, Maryland, has filed a Petition for a Writ of Habeas Corpus pursuant to 28 U.S.C. §
2254. Nivens, who is self-represented, challenges the validity of his conviction and the sentence
imposed after he pleaded guilty in the Circuit Court for Baltimore County, Maryland to seconddegree sexual offense and first-degree burglary. The Petition is fully briefed. Upon review of the
submitted materials, the Court finds a hearing unnecessary. See Rule 8(a), Rules Governing
Section 2254 Cases in the United States District Courts; D. Md. Local R. 105.6. For the reasons
set forth below, the Petition will be DENIED.

BACKGROUND
On July 9, 2007, Nivens was indicted in the Circuit Court for Baltimore County for firstdegree sexual offense, first-degree burglary, and several related counts arising from events that
took place on October 25, 1987. In June 2008, a jury convicted Nivens of first-degree sexual
offense and first-degree burglary, for which he received a total sentence of 70 years of

Appendix B

Case 8:16-cv-02648-TDC Document 41 Filed 11/15/19 Page 2 of 20
w-

imprisonment. On direct appeal, however, the Maryland Court of Special Appeals reversed
Nivens’s convictions, finding that the trial court had erred in admitting evidence of a prior sexual
assault allegedly committed by Nivens. After the case was remanded, Nivens and the State reached
a plea agreement. On September 15, 2011, Nivens entered a guilty plea to second-degree sexual
offense and first-degree burglary, in which he maintained his innocence pursuant to North
Carolina v. Alford, 400 U.S. 25, 37-39 (1970). On October 31, 2011, Nivens was sentenced to 20
years of imprisonment on each count, to run consecutively, for a total term of 40 years.
After his sentencing, Nivens mounted various challenges to his conviction and sentence.
Nivens filed three Motions to Correct an Illegal Sentence, the first of which was granted in part to
credit Nivens for 1,525 days of time served. Nivens’s second Motion to Correct an Illegal
Sentence, protesting the calculation of good conduct credits and the sex offender registration
requirement, was denied, with the decision affirmed by the Court of Special Appeals. The final
Motion to Correct an Illegal Sentence, which raised further objections to Nivens’s diminution
credits and a double jeopardy claim, was denied. The Court of Special Appeals affirmed that
denial on September 8, 2017.
Nivens has also pursued state post-conviction remedies. On October 10,2012, Nivens filed
a petition for post-conviction relief pursuant to the Maryland Uniform Postconviction Procedure
Act, Md. Code Ann., Crim. Proc. §§ 7-101 to 7-301 (2018). Nivens challenged the legality of his
sentence and further asserted that his guilty plea to first-degree burglary and his sentence violated
the Double Jeopardy Clause and Ex Post Facto Clause of the United States and Maryland
Constitutions. On February 12,2013, the Circuit Court rejected Nivens’s arguments and dismissed
the petition without holding a hearing. The Court of Special Appeals denied his application for
leave to appeal the ruling.

2 .
' 'V

Case 8:16-cv-02648-TDC Document 41 Filed 11/15/19 Page 3 of 20

On January 8, 2016, Nivens filed a second post-conviction petition. Finding that the
petition raised the same issues previously dismissed, the Circuit Court dismissed the second
petition in a brief order. After Nivens filed a third post-conviction petition on August 1, 2016, a
defense attorney entered an appearance on Nivens’s behalf. Because Nivens had never been
afforded the post-conviction hearing he is entitled to under Maryland law, the Circuit Court
reopened Nivens’s post-conviction proceedings and scheduled a hearing for February 28, 2018.
Before the hearing, however, Nivens withdrew his third post-conviction petition.
Separate from his post-conviction petitions, Nivens also filed a state petition for a writ of
habeas corpus. On July 28, 2016, Nivens filed that petition in the Circuit Court for Washington
County. He presented the same claims asserted in his post-conviction petitions, including claims
of a miscalculation of his diminution credits and violations of the Double Jeopardy and Ex Post
Facto Clauses.

The Circuit Court denied the state habeas petition, finding no error in the:

calculation of Nivens’s diminution credits and holding that the other claims were not properly
before the court. Nivens appealed the denial of the state habeas petition, but the Court of Special
Appeals dismissed the appeal for failure to comply with court procedures.
Meanwhile, on July 21,2016, Nivens filed his federal Petition for a Writ of Habeas Corpus
in this Court pursuant to 28 U.S.C. § 2254. Nivens asserts a number of arguments for relief, all of
which are substantially similar to those presented in his state post-conviction petitions and state
habeas corpus petition. On November 13, 2017, prior to the scheduled hearing on the third state
post-conviction petition, Respondents asked this Court to stay the present federal habeas case to
allow Nivens to complete his state post-conviction remedies. The Court granted the requested
stay, but after Respondents informed the Court that Nivens had withdrawn that post-conviction
petition before the hearing date, the Court lifted the stay on March 19, 2018. Respondents then

3 Appendix B

Case 8:16-cv-02648-TDC Document .41 . Filed 11/15/19 Page 4 of 20

filed an Answer, arguing that Nivens’s Petition should be dismissed based on a failure to exhaust
state remedies, based on procedural default, and on the merits. Nivens filed a Reply and has also
submitted four other supplemental filings. ECF Nos. 25,36,37, 39,40.
DISCUSSION
In the Petition, Nivens asserts several grounds for relief, falling into two main categories.
First, Nivens argues that multiple laws were applied against him in violation of the Ex Post Facto
Clause of the United States Constitution, including laws relating to the collection and admissibility
of evidence, sex offender registration, and diminution credits. Second, he asserts that the State
violated the Double Jeopardy Clause of the Constitution because in failing to apply certain
diminution credits accrued before Nivens’s initial conviction was overturned to the sentence
imposed after Nivens’s guilty plea, the State effectively punished Nivens twice for the same crime.
Nivens further claims that his Alford plea to first-degree burglary violated the Double Jeopardy
Clause because he was acquitted of a separate first-degree burglary charge at trial. In opposing
the Petition, Respondents argue that Nivens failed to exhaust state remedies and that his ex post
facto and double jeopardy claims are meritless.
I.

Legal Standard
A federal petition for a writ of habeas corpus may be granted only for violations of the
Constitution or laws of the United States. 28 U.S.C. § 2254(a) (2018). The federal habeas statute
sets forth a highly deferential standard for evaluating state court rulings, under which state court
decisions are to “be given the benefit of the doubt.” Bell v. Cone, 543 U.S. 447, 455 (2005); see
also Lindh v. Murphy, 521 U.S. 320,333 n.7 (1997). A federal court may not grant a writ ofhabeas
corpus unless the state court’s adjudication on the merits (1) resulted in a decision that was contrary
to, or involved an unreasonable application of, clearly established federal law, as determined by

4
*' .

Case 8:16-cv-02648-TDC Document 41 Filed 11/15/19 Page 5 of 20

the United States Supreme Court; or (2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the state court proceeding. 28
U.S.C. § 2254(d). “[A] a federal habeas court may not issue the writ simply because [it] concludes
in its independent judgment that the relevant state-court decision applied established federal law
erroneously or incorrectly.” Renico v. Lett, 559 U.S 766, 773 (2010) (quoting Williams v. Taylor,
529 U.S. 362, 411 (2000)). The state court’s application of federal law must be “objectively
unreasonable.” Id (quoting Williams, 529 U.S. at 409). Furthermore, under § 2254(d)(2), “a statecourt factual determination is not unreasonable merely because the federal habeas court would
have reached a different conclusion in the first instance.” Woodv. Allen, 558 U.S. 290,301 (2010)
(citation omitted). The fact that “reasonable minds reviewing the record might disagree about the
finding in question” is not enough to deem a state court’s factual determination unreasonable. Id.
II.

Exhaustion of State Remedies
As a threshold issue, Respondents argue that the Petition should be dismissed in its entirety

because he failed to exhaust state remedies on each of his claims. A petitioner seeking habeas
relief in federal court generally must exhaust the remedies available in state court. 28 U.S.C. §
2254(b)(1); O’Sullivan v. Boerckel, 526 U.S. 838, 842 (1999). This exhaustion requirement is
satisfied by seeking review of the claim in the highest state court with jurisdiction to consider the
claim. See 28 U.S.C. § 2254(c).
For a person convicted of a criminal offense in Maryland, exhaustion may be accomplished
either on direct appeal or in post-conviction proceedings. To exhaust a claim on direct appeal in
non-capital cases, a defendant must assert the claim in an appeal to the Court of Special Appeals
of Maryland and then to the Court of Appeals of Maryland by way of a petition for a writ of
certiorari. See Md. Code Ann., Cts. & Jud. Proc. §§ 12-201,12-301 (2013). To exhaust a claim

5 Appendix B

Case 8:16-cv-02648-TDC Document 41 Filed 11/15/19 Page 6 of 20

through post-conviction proceedings, a defendant must assert the claim in a petition filed in the
Circuit Court in which the inmate was convicted within 10 years of the date of sentencing. See
Md. Code Ann., Crim. Proc. §§ 7-101 to 7-103. After a decision on a post-conviction petition,
further review is available through an application for leave to appeal filed with the Court of Special
Appeals. Id. § 7-109. If the Court of Special Appeals denies the application, there is no further
review available and the claim is exhausted. Md. Code Ann., Cts. & Jud. Proc. § 12-202.
Presumably based on the reopening of Nivens’s state post-conviction proceedings and
Nivens’s subsequent withdrawal of his petition, Respondents argue that Nivens has “affirmatively
declined to pursue” his available state remedies to completion.. Ans. at 18, ECF No. 30. Under
Maryland law, an inmate is generally entitled to only one state petition for post-conviction relief.
Md. Code Ann., Crim. Proc. § 7-103(a). However, as in Nivens’s case, a state court may reopen
a post-conviction proceeding if the court determines “the action is in the interests ofjustice.” Id.
§ 7-104. Although the state post-conviction court reopened Nivens’s case after realizing that
Nivens had never received a hearing mandated under Maryland law, that court had previously
dismissed Nivens’s claims. Nivens had properly filed a petition for leave to appeal that decision,
which was denied by the Court of Special Appeals. Thus, before he sought to reopen his post­
conviction proceedings, Nivens had exhausted state remedies. Md. Code Ann., Cts. & Jud. Proc.
§ 12-202(1); see Sherman v. State, 593 A.2d 670, 670 (Md. 1991) (finding that the Court, of
Appeals “has no certiorari jurisdiction to grant post-conviction relief when the Court of Special
Appeals has simply denied an application for leave to appeal in a post-conviction proceeding”).
Notably, Nivens also filed a state habeas corpus petition, through which certain of the claims
before this Court were also denied on the merits. As a result, all of the grounds of relief now
before the Court on federal habeas review have been raised and resolved once if not twice in

Case 8:16-cv-02648-TDC Document 41 Filed 11/15/19 Page 7 of 20

- 5

*

separate state court proceedings. Under these circumstances, even if Nivens technically has
remaining avenues toward relief in state court, due to the procedural irregularities in this case and
the fact that multiple state courts have already ruled on these same claims, the Court declines to
dismiss Nivens’s petition on the basis of exhaustion. See 28 U.S.C. § 2254(b)(2) (“An application
for a writ of habeas corpus may be denied on the merits, notwithstanding the failure of the applicant
to exhaust the remedies available in the courts of the State.”).
III.

Ex Post Facto Clause
A.

Collection and Admissibility of Evidence

Nivens mounts challenges to a number of state laws and rules adopted after the conduct of
his offenses of conviction that he asserts were improperly applied against him, in violation of the
Ex Post Facto Clause. In particular, Nivens asserts that Maryland Rule 4-212(a), relating to the
issuance of a summons and arrest warrant, and Maryland Rule 4-601, relating to the issuance of a
search warrant, both of which were amended after the commission of the offense of conviction,
were improperly applied to him. He further asserts that Sections 2-501 to 2-510 of the Public
Safety Article of the Maryland Code, governing the use of DNA evidence, were improperly
applied against him because these provisions were enacted after the crime of conviction was
committed. Nivens similarly argues that the application against him of Section 10-915 of the
Courts and Judicial Proceedings Article, relating to the admissibility of DNA profile evidence,
violated the Ex Post Facto Clause.
Nivens’s ex post facto claims relating to these statutes and rules have been procedurally
defaulted. Even assuming that Nivens exhausted all available state remedies, the Court must
consider whether the procedural default doctrine applies to bar federal review of one or more of
these claims. A claim is procedurally defaulted if a “state court clearly and expressly bases its

7

Appendix B

Case 8:16-cv-02648-TDC Document 41 Filed 11/15/19 Page 8 of 20
*

dismissal of ahabeas petitioner’s claim on a state procedural rule, and that procedural rule provides
an independent and adequate ground for the dismissal.” Breardv, Pruett, 134 F.3d 615, 619 (4th
Cir. 1998) (citing Coleman v. Thompson, 501 U.S. 722, 731-32 (1991)). A state procedural bar to
raising a new claim may constitute such a ground. See id.
Nivens asserted ex post facto challenges against these same laws in his first state post­
conviction petition. The state post-conviction court dismissed those claims, explicitly relying on
a state procedural rule. Under the Maryland Uniform Postconviction Procedure Act, absent special
circumstances, “an allegation of error is waived when a petitioner could have made but
intelligently and knowingly failed to make the allegation” before or at trial. Md. Code Ann., Crim.
Proc. § 7-106(b)(l)(i). When the petitioner could have made an allegation of error at such a
proceeding but did not, “there is a rebuttable presumption that the petitioner intelligently and
knowingly failed to make the allegation.” Id. § 7-106(b)(2). Here, Nivens’s ex post facto claims
arise out of laws governing Nivens’s arrest and the use of evidence. The state post-conviction
court found that Nivens “could have challenged these statutes ... at his trial date on September
15, 2011.” 2/12/13 State Post-Conviction Op. at 8, Mot. Stay Ex. 1, ECF No. 15-1. Instead,
Nivens entered an Alford plea to second-degree sexual offense and first-degree burglary and
acknowledged that “he was giving up the important rights of having a jury trial.” Id. Finding that
Nivens had not presented any evidence to rebut the presumption of waiver, the state post­
conviction court dismissed the claims. Id. at 9. Accordingly, the state post-conviction court’s
resolution of these claims was based on a procedural rule, constituting an adequate and
independent ground for dismissal. See Md. Code Ann., Crim. Proc. § 7—106(b)(1); see Newton v.
State, 168 A.3d 1, 7 n.5 (Md. 2017) (finding a waiver under section 7—106(b)(1) of a claim first

r '

!i- '

. ;*

L- .

. 8

Case 8:16-cv-02648-TDC Documents Filed 11/15/19 Page 9 of 20

¥
raised in a post-conviction petition when the defendant failed to allege error at trial or on direct
appeal).
When a state prisoner’s habeas claim has been procedurally defaulted, a federal court may
not address the merits of the claim unless the petitioner can show both “cause for the default and
actual prejudice as a result of the alleged violation of federal law.” Coleman v. Thompson, 501
U.S. 722,750 {\99\)\Breard, 134 F.3d at 620. “Cause” consists of “some objective factor external
to the defense” that “impeded counsel’s efforts to comply with the State’s procedural rule.”
Murray v. Carrier, 477 U.S 478, 488 (1986). To demonstrate prejudice, the petitioner must show
“not merely that the errors at his trial created a possibility of prejudice, but that they worked to his
actual and substantial disadvantage, infecting his entire trial with error of constitutional
dimensions.” United States v. Frady, 456 U.S. 152,170 (1982); see-Murray, All U.S. at 494. In
addition, a petitioner may obtain review of procedurally defaulted claims if the case “falls within
the ‘narrow class of cases ... implicating a fundamental miscarriage ofjustice.’” Schlup v. Delo,
513 U.S. 298, 314-15 (1995) (quoting McCleskey v. Zant, 499 U.S. 467, 494 (1991)) (alteration
in original); Coleman, 501 U.S. at 750 (holding that procedural default may be excused if the
failure to consider the claims will result in a “fundamental miscarriage of justice”). Such cases
are generally limited to those for which the petitioner can show that “a constitutional violation has
probably resulted in the conviction of one who is actually innocent.” Murray, All U.S. at 496. To
be credible, “a claim of actual innocence must be based on reliable evidence not presented at trial.”
Calderon v. Thompson, 523 U.S. 538, 559 (1998).
Neither exception to the procedural default bar applies. As to cause and prejudice, nothing
in the record suggests that Nivens’s procedural default was due to external circumstance. Nivens
also presents no new evidence to support his claim of innocence. Where Nivens has provided no

9 Appendix B

Case 8:16-cv-02648-TDC Documents, Filed 11/15/19 Page 10 of 20

4
basis for excusing his procedural default, the Court will dismiss these ex post facto claims as
procedurally defaulted.
B.

Sex Offender Registration

Nivens also asserts that the requirement that he must register as a sex offender violates the
Ex Post Facto Clause because the registration requirement applied to him was enacted after the
date of the offense. Under the relevant Maryland law, first enacted in 1995, before the conduct
underlying Nivens’s conviction, persons convicted of certain sex offenses are required to register
with their “supervising authority.” Md. Code Ann., Crim. Proc. § 1 l-704(a). In 2010, the statute
was amended to provide for retroactive application of the registration requirement to those “under
the custody or supervision of a supervising authority on October 1, 2010.” Id. § 11-702.1(a)(1).
Thus, although Nivens did not have to register as a sex offender after his initial conviction in 2008,
he was required to register after he pleaded guilty in 2011. At Nivens’s plea colloquy, the state
court specifically informed Nivens that he would be required to register as sex offender “in all
likelihood for life.” 9/15/11 PleaTr. at 10, Ans. Ex^ 1, ECFNo. 30-1. Nivens acknowledged that
he understood this requirement. Id.
The United States Constitution prohibits states from enacting any ex post facto laws. U.S.
Const, art. 1, § 10, cl. 1. “One function of the Ex Post Facto Clause is to bar enactments which,
by retroactive operation, increase the punishment for a crime after its commission.” Garner v.
Jones, 529 U.S. 244, 249 (2000). States are not, however, precluded “from making reasonable
categorical judgments that conviction of specified crimes should entail particular regulatory
consequences.” Smith v. Doe, 538 U.S. 84, 103 (2003). In Smith, the Supreme Court rejected a
challenge to Alaska’s sex offender registration law under the Ex Post Facto Clause. Id. at 105-06.
In so ruling, the Court first had to determine whether the state intended to “enact a regulatory

•H 10

Case 8:16-cv-02648-TDC Document 41 Filed 11/15/19 Page 11 of 20

f
scheme that is civil and nonpunitive.” Id. at 92. After finding that the state intended to create such
a regime, the Court analyzed the effects of the law to ensure the statute was not “so punitive” as
to negate the state’s intention “to deem it civil.” Id. (internal citation omitted). Finding that
Alaska’s chosen “regulatory means” were “reasonable in light of the nonpunitive objective,” the
Court held that the state law did not violate the Ex Post Facto Clause. Id. at 105.
When Nivens raised this claim in his initial state post-conviction petition, the state post­
conviction court found that the law did not violate the Ex Post Facto Clause because “sex offender
registration is not punishment in the constitutional sense” but rather “a remedial requirement for
the protection of the public.” 2/12/13 State Post-Conviction Op. at 9 (quoting Young v. State, 806
A.2d 233,250 (Md. 2002)). The state post-conviction court relied on the decision of the Maryland
Court of Appeals in Young v. State, 806 A.2d 233 (Md. 2002), a case decided before Smith but
which applied an “intent-effects” test that is essentially the same test as the analysis set forth in
Smith. Id. at 248-49. In Young, the court applied that test to an earlier version of the Maryland
sex offender registration requirement and concluded that it did not constitute punishment
implicating the Ex Post Facto Clause. Id. at 250. Thus, the state post-conviction court effectively
adopted the conclusion of the Maryland Court of Appeals, based on the appropriate federal
standard, that the Maryland sex offender registration law does not violate the Ex Post Facto Clause.
Although Nivens relies on the more recent decision in Doe v. Department of Public Safety
and Correctional Services, 62 A.3d 123 (Md. 2013), in which the Maryland Court of Appeals held
that the retroactive application of Maryland’s sex offender registration law is an ex post facto
violation, that decision was “based exclusively upon [the court’s] interpretation of the protections
afforded by Article 17 of Maryland's Declaration of Rights,” not the federal Constitution’s Ex Post
Facto Clause. Id. at 130&n.l 1. In so ruling the court adopted a more lenient standard for purposes

11

Appendix B

Case 8:16-cv-02648-TDC Document 41 Filed 11/15/19 Page 12 of 20
\

of Article 17, that a law implicates the Ex Post Facto Clause if it “disadvantages the offender,” and
acknowledged that such a standard provides broader protection than the United States Constitution.
Id. at 136. On federal habeas review, however, the relevant question is whether the state court’s
decision was a reasonable application of clearly established federal law as “determined by the
Supreme Court.” 28 U.S.C. § 2254(d)(1); see Estelle v. McGuire, 502 U.S. 62, 67-68 (1991)
(holding that federal habeas relief is not available for errors of state law). Here, where the state
post-conviction court’s decision relies on an analysis under the federal test established by the
Supreme Court, the decision meets the deferential standard as a reasonable application of clearly
established federal law.1
C.

Special Project Credits

Nivens’s final challenge under the Ex Post Facto Clause relates to his entitlement to special
project diminution of confinement credits, which reduce the length of an inmate’s incarceration.
An inmate committed to the custody of the Maryland Division of Correction (“DOC”) can obtain
diminution credits for good conduct, work tasks, education, and special projects. Md. Code Ann.,
Corr. Servs. §§ 3-703 to 3-707 (2017). An inmate must be released after serving time equal to
the length of his term of confinement less any diminution credits he has earned. See id. § 7501(a)(3).

i

Since the Maryland Court of Appeals’ decision in Doe, the Department of Public Safety and
Correctional Services (“DPSCS”) has reviewed the registry to remove individuals who were
convicted of sexual offenses for conduct prior to 1995. See Department Continues to Review
Additional
Registered
Sex
Offenders,
Maryland.gov
(Aug.
12,
2014),
https://news.maryland.gov/dpscs/2014/08/12/dpscs-begins-removing-offenders-from-sexoffender-registry-after-june-court-of-appeals-ruling/. While nothing in the record suggests Nivens
has been removed from the registry, the Court notes that he may no longer be subject to the
requirement.
12

Case 8:16-cv-02648-TDC Documents Filed 11/15/19 Page 13 of 20

To qualify as a “special project” credit, a diminution credit must derive from a program
designated by the Commissioner of Correction and approved by the Secretary of the Department
of Public Safety and Correctional Services (“DPSCS”). Md. Code Ann., Corr. Servs. § 3707(a)(1). In 1990, the DOC issued, regulations providing special project credits if an inmate was
“[assigned to a cell containing two beds,” known as “double-celling.” Md. Code Regs. §
12.02.06.04F(1) (2019) (formerly § 12.02.06.05N(2) (1990)). Under a later amendment to the
regulations, inmates serving sentences for certain crimes, including sex offenses, are not eligible
for the double-celling credits. Id. § 12.02.06.04F(3)(a). Nivens argues that because the provision
making sex offenders ineligible for double-celling credits was adopted in 2002, after the offense
of conviction occurred in 1987, he was denied double-celling credits in violation of the Ex Post
Facto Clause.
Nivens raised this claim in both his state post-conviction petition and state habeas corpus
petition. Although the state post-conviction court rejected the argument based on Nivens’s failure
to support his claim with a factual basis, the state habeas court dismissed the claim on the merits.
After finding that the DOC had correctly determined that Nivens was ineligible to earn doublecelling credits while serving the sentence imposed after his conviction at trial, the state habeas
court rejected Nivens’s ex post facto claim because the double-celling credit provision was
instituted in 1990, such that at the time of the offense in 1987, the Commissioner “had not
designated double celling as a special project.” 12/7/16 State Habeas Op. at 7, Ans. Ex. 8, ECF
No. 30-8. Thus, while the amendment to the regulations rendering Nivens ineligible for doublecelling credits occurred after the offense of conviction was committed in 1987, it did not increase
the punishment Nivens faced at the time of that offense.

13

Appendix B

Case 8:16-cv-02648-TDC Document 41 Filed 11/15/19 Page 14 of 20

Under clearly established federal law, a statute violates the Ex.Post Facto Clause “if it is
both retrospective and more onerous than the law in effect on the date of the offense.” Weaver v.
Graham, 450 U.S. 24, 30-31 (1981). On the date of the offense, special project credits for doublecelling were unavailable. Accordingly, the state habeas court’s conclusion that the amendment
rendering sex offenders ineligible for double-celling credits was not an ex post facto law because
it did not “disadvantage^ the offender” by “increasing the punishment for the crime” was a
reasonable application of federal law. 12/7/16 State Habeas Op. at 7 (quoting Lynce v. Mathis,
519 U.S. 433,441 (1997)). The Petition will be denied as to the ex post facto claims.
IV.

Double Jeopardy Clause
Nivens’s final two arguments for relief are grounded in the Double Jeopardy Clause of the

Fifth Amendment to the Constitution. The Double Jeopardy Clause provides that no person shall
be “subject for the same offense to be twice put in jeopardy of life or limb.” U.S. Const, amend.
V. The clause protects a criminal defendant against three specific harms: (1) a second prosecution
for the same offense after acquittal; (2) a second prosecution for the same offense after conviction;
and (3) multiple punishments for the same offense. Jonesv. Thomas,491 U.S. 376,380-81 (1989).
Nivens claims double jeopardy arising from the calculation of his good conduct credits and from
his Alford plea to first-degree burglary after a previous acquittal on a separate first-degree burglary
charge.
A.

Good Conduct Credits

First, Nivens asserts he has been unlawfully deprived of good conduct diminution credits.
Good conduct credits operate as an advanced deduction from an inmate’s term of confinement,
subject to future good behavior. Md. Code Ann., Corr. Servs. § 3-704(a). Good conduct credits
may be revoked “[i]f an inmate violates the applicable rules of discipline.” Id. § 3-709(a). When

14

Case 8:16-cv-02648-TDC Document 41 Filed 11/15/19 Page 15 of 20
'*4

J

Nivens was initially convicted after trial in 2008, he was awarded good conduct credits based on
his 70-year sentence at a rate of five days per month. See id § 3-704(b)(2). Nivens argues that
he is entitled to what he calculates as 4,174 projected good conduct credits from that reversed
sentence. Instead, the DOC counted 129 of those good conduct credits toward Nivens’s new
sentence, representing the credits earned during the time served on the previous sentence from July
18, 2008 to May 11,2010. See DPSCS Letter, Pet. Ex. 1. at 8, ECF No. 1-1. Nivens was further
awarded 2,149 projected good conduct credits based on his new 40-year sentence. DPSCS Credit
Balance, Pet. Ex. 1. at 7, ECF No. 1-1.
Nivens’s claim that the DOC’s refusal to credit him for the 4,174 projected good conduct
. credits on his initial sentence violates the Double Jeopardy Clause implicates the third protection
of the clause, the protection against multiple punishments for the same offense. Nivens raised this
same argument in his state habeas petition. Without any reference to double jeopardy, the state
habeas court rejected this claim,, finding that Nivens was entitled only to the 129 good conduct
credits associated with the time served under the prior sentence.
Disputes over the calculation of diminution credits are generally issues of state law and do
not give rise to a federal question. McCray v. Rosenblatt, No. 94-6097, 1994 WL 320212, at *1
(4th Cir. July 6,1994) (per curiam) (unpublished) (denying a challenge to the calculation of credits
because it “only alleged a violation of state, not federal, law”); see also Estelle, 502 U.S. at 67-68
(“[I]t is not the province of a federal habeas court to reexamine state-court determinations on statelaw questions.”); Wright v. Angelone, 151 F.3d 151,157 (4th Cir. 1998). Although Nivens frames
his claim as a double jeopardy challenge, he supports his argument by citing to state law. Nivens
asserts that he is entitled to the good conduct credits for his prior sentence pursuant to a provision
of state law providing that an inmate whose sentence is set aside and who is re-prosecuted or

15

Appendix B

Case 8:16-cv-02648-TDC Document 41 Filed 11/15/19 Page 16 of 20

resentenced must receive credit “for all time spent in custody under the prior sentence.” Md. Code
Ann., Crim. Proc. § 6-218(c).
Even if Nivens’s claim is cognizable on federal habeas review, the Court finds nothing in
the record to support a violation of the Double Jeopardy Clause. The Supreme Court has described
the purpose of the protection against multiple punishments as “to ensure that sentencing courts do
not exceed, by the device of multiple punishments, the limits prescribed by the legislative branch
of government, in which lies the substantive power to define crimes and prescribe punishments.”
Jones, 491 U.S. at 381. The Maryland legislature has determined that individuals who are
resentenced should receive credit for time served, Md. Code Ann., Crim. Proc. § 6-218(c), and the
state habeas court found Nivens was properly credited for the good conduct credits he earned on
his prior sentence. Nivens has identified no legal requirement that he receive good conduct credits
from his overturned sentence associated with periods of time that he did not serve under that
sentence. Indeed, where he has now received good time credits for such future time periods
through his present sentence, such credits would be inappropriately duplicative in part.
Accordingly, the state habeas court’s rejection of this claim does not amount to an unreasonable
application of clearly established federal law nor an unreasonable determination of the facts. The
Petition will be denied as to the double jeopardy challenge to the calculation of good conduct
credits.
B.

First-Degree Burglary Guilty Plea

Next, Nivens challenges the validity of his Alford plea to first-degree burglary as a violation
of the Double Jeopardy Clause. When Nivens was indicted in July 2007, he was charged with,
among other crimes, two counts of first-degree burglary. At trial, the jury convicted Nivens on
Count 5, first-degree burglary with intent to commit a .sex offense, as well as one count of first-

. 16

Case 8:16-cv-02648-TDC Documents Filed 11/15/19 Page 17 of 20

degree sexual offense. However, Nivens was acquitted on Count 6, first-degree burglary with
intent to commit theft. After Nivens’s successful appeal resulted in the reversal of his conviction,
Nivens entered an Alford plea as to Count 5, as well as to a charge of second-degree sexual offense,
and was resentenced on those charges.
Nivens appears to raise two distinct double jeopardy arguments relating to his guilty plea
to the first-degree burglary charge in Count 5. First, Nivens argues that his guilty plea to that
charge was improper because the jury acquitted him of the separate first-degree burglary charge
in Count 6. Second, Nivens suggests that his guilty plea to first-degree burglary was unlawful
because he had already been convicted of that same charge at trial. Under either theory, Nivens’s
double jeopardy claim fails.
With respect to the first theory, Nivens argues that Count 6 was the “lesser included
offense” of Count 5. Pet. at 18, ECF No. 1. Nivens thus asserts that his plea to Count 5 amounted
to a second prosecution for the same offense after acquittal, which is prohibited by the Double
Jeopardy Clause. The Maryland Court of Special Appeals, however, rejected this claim in denying
Nivens’s third Motion to Correct an Illegal Sentence. The Court of Special Appeals concluded
that Count 5 and Count 6 were two separate charges, such that the guilty plea on Count 5 did not
run afoul of the Double Jeopardy Clause. This Court agrees.
For purposes of double jeopardy, two offenses are not the “same offense” where one crime
requires proof of a different element not required for conviction on the second crime. Blockburger
v. United States, 284 U.S. 299, 304 (1932) (“The applicable rule is that, where the same act or
transaction constitutes a violation of two distinct statutory provisions, the test to be applied to
determine whether there are two offenses or only one, is whether each provision requires proof of
a fact which the other does not.”). In Count 5, Nivens was charged with first-degree burglary with

17

Appendix B

Case 8:16-cv-02648-TDC Document 41 Filed 11/15/19 Page 18 of 20
t'

intent to commit a sexual offense under section 6-202(b) of the Criminal Law Article of the
Maryland Code, which provides that “[a] person may not break and enter the dwelling of another
with the intent to commit a crime of violence.” Md. Code Ann., Crim. Law § 6-202(b) (2012);
see id. § 14—101 (a)(13) (defining the term “crime of violence” as including “sexual offense in the
second degree”). In contrast, Count 6 charged Nivens with first-degree burglary with intent to
commit theft under section 6-202(a), which provides that “fa] person may not break and enter the
dwelling of another with the intent to commit theft.” Id. § 6-202(a). Where one offense requires
proof of intent to commit a crime of violence, and the other requires proof of a distinct element,
intent to commit theft, the two counts were not the “same offense.” Blockburger, 284 U.S. at 304.
Accordingly, the state court’s determination that, acquittal on Count 6 did not preclude re­
prosecution and a guilty plea on Count 5 was a reasonable application of federal law.
Nivens’s second argument is premised on a violation of the Double Jeopardy Clause’s
protection against a second prosecution for the same offense after conviction. Nivens asserts he
was subjected to a “second conviction” for the same offense when he entered an Alford plea to
Count 5 after his initial conviction of Count 5 was reversed on appeal. Reply at 31, ECF No. 36.
The state post-conviction court rejected this claim based on Burks v. United States, 437 U.S. 1
(1978), in which the Supreme Court held that although the Double Jeopardy Clause bars a second
trial after a conviction was reversed due to insufficiency of the evidence, a reversal for another
form of“trial error” does not preclude aretrial. Id. at 14-16. Here, Nivens’s original conviction
on Count 5 was reversed based on the trial court’s error of admitting evidence of a prior sexual
assault allegedly committed by Nivens. As Nivens’s conviction was reversed based on “the
incorrect receipt... ,._of evidence,” not insufficiency of the evidence, the state post-conviction court
correctly rejected the double jeopardy claim. 2/12/13 State Post-Conviction Op. at 4-5 (quoting

18

Case 8:16-cv-02648-TDC Documents Filed 11/15/19 Page 19 of 20
4
j
Burks, 437 U.S. at 15). Accordingly, the Court will deny the Petition as to Nivens’s double
jeopardy claim relating to his first-degree burglary conviction.
V.

New Claims
In addition to his Petition and Reply, Nivens has submitted three additional filings,

including two entitled “Supplemental Motion and Exhibit.” ECF Nos. 25, 37, 39. Nivens has also
filed a Motion to Supplement and Amend his Reply. ECF No. 40. To the extent that these filings
seek to offer additional briefing in support of the claims asserted in the Petition, leave to file
additional briefs will be denied as contrary to Rule 5 of the Rules Governing Section 2254 Cases
in the United States District Courts (“Section 2254 Rules”). In any event, the asserted arguments
do not alter the Court’s analysis. To the extent that these filings can be construed as alleging new
claims not asserted in the Petition, the Court declines to consider them. See Section 2254 Rule
2(c) (requiring that the petition must “specify all the grounds for relief available to the petitioner”);
cf. Yousefi v. INS, 260 F.3d 318, 326 (4th Cir. 2001) (finding that an argument raised for first time
in a reply brief was waived).
VI.

Certificate of Appealability
Section 2254 Rule 11(a) provides that the district court “must issue or deny a certificate of

appealability when it enters a final order adverse to the applicant” on a § 2254 petition. Because
the accompanying Order is a final order adverse to the applicant, Nivens must receive a certificate
of appealability before an appeal may proceed. 28 U.S.C. § 2253(c)(1).
When a district court rejects constitutional claims on the merits, a petitioner satisfies the
standard by demonstrating that “jurists of reason could disagree with the district court’s resolution
of [the] constitutional claims or that jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further.” Buck v. Davis, 137 S. Ct. 759, 773 (2017) (quoting

19

Appendix B

Case 8:16-cv-02648-TDC Document 41 Filed 11/15/19 Page 20 of 20

i

*
•
(
•*>

Miller-El v. Cockrell, 537 U.S. 322,327 (2003)). When a petition is denied on procedural grounds,
the petitioner meets the standard with a showing that reasonable jurists “would find it debatable
whether the petition states a valid claim of the denial of a constitutional right” and “whether the
district court was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Nivens’s claims are denied and dismissed on both procedural grounds and the merits. Upon
review of the record, the Court finds that Nivens has not made the requisite showing under the
applicable standards. The Court therefore declines to issue a certificate of appealability. Nivens
may still request that the United States Court of Appeals for the Fourth Circuit issue such a
certificate. See Fed. R. App. P. 22(b); Lyons v. Zee, 316 F.3d 528,532 (4th Cir. 2003) (considering
whether to grant a certificate of appealability after'the district court declined to issue one).
CONCLUSION
For the foregoing reasons, the Petition for a Writ of Habeas Corpus will be DENIED and
DISMISSED. The Court declines to issue a certificate of appealability. A. separate Order shall
issue.

Date: November 15,2019
THEODORE D. CHUAN
United States District Judi

\v.‘A-v

U . .

<

20

%

iV

Case 8:16-cv-02648-TDC Document 42 Filed 11/15/19 Page 1 of 1

/

UNITED STATES DISTRICT COURT
DISTRICT OF MARYLAND
STEPHEN NIVENS,
Petitioner,
v.

Civil Action No. TDC-16-2648
WARDEN J. PHILLIP MORGAN and
THE ATTORNEY GENERAL OF THE
STATE OF MARYLAND,
Respondents.

ORDER
For the reasons stated in the accompanying Memorandum Opinion, it is hereby ORDERED
that:
1.

The Petition for a Writ of Habeas Corpus, ECF No. 1, is DENIED and
DISMISSED.

2.

The Motion to Supplement and Amend, ECF No. 40, is DENIED.

3.

The Court DECLINES to issue a certificate of appealability.

4.

The Clerk shall PROVIDE a copy of this Order and the accompanying
Memorandum Opinion to Petitioner Nivens.

5.

The Clerk shall CLOSE this case.

Date: November 15, 2019
THEODORE D. CHDJ^jJj
United States DistrictCudee

